AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING
  COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
       TEXAS DEPARTMENT OF PUBLIC SAFETY
          McALLEN CRIMINAL LABORATORY
                 McALLEN, TEXAS




            U.S. Department of Justice
          Office of the Inspector General
                   Audit Division


           Audit Report GR-60-11-011
                   June 2011
  AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING
   COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
        TEXAS DEPARTMENT OF PUBLIC SAFETY
           McALLEN CRIMINAL LABORATORY
                  McALLEN, TEXAS

                            EXECUTIVE SUMMARY


      The Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of compliance with standards
governing Combined DNA Index System (CODIS) activities at the Texas
Department of Public Safety McAllen Criminal Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
                                  1
missing or unidentified persons. The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, contains DNA profiles uploaded by law
enforcement agencies across the United States and is managed by the FBI.
NDIS enables the laboratories participating in the CODIS program to
electronically compare DNA profiles on a national level. The State DNA
Index System (SDIS) is used at the state level to serve as a state’s DNA


       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
database and contains DNA profiles from local laboratories and state
offenders. The Local DNA Index System (LDIS) is used by local laboratories.

OIG Audit Objectives

      Our audit generally covered the period from April 2009 through
March 2011. The objectives of our audit were to determine if: (1) the Texas
Department of Public Safety McAllen Criminal Laboratory was in compliance
with the NDIS participation requirements; (2) the Laboratory was in
compliance with the Quality Assurance Standards (QAS) issued by the FBI;
and (3) the Laboratory’s forensic DNA profiles in CODIS databases were
complete, accurate, and allowable for inclusion in NDIS.

     Our review determined the following.

     •   The Laboratory was in compliance with the NDIS participation
         requirements. Specifically, we found that CODIS access is properly
         safeguarded, Laboratory personnel requirements are being fulfilled,
         and policies and procedures related to NDIS are available and
         followed by Laboratory staff. However, we noted a discrepancy
         pertaining to the retention of personnel records. Specifically, NDIS
         requires personnel records be kept for 10 years while the
         Laboratory’s Operations Guide requires personnel records only be
         retained for 5 years. Although Laboratory staff informed us that
         they retain personnel records indefinitely, the Laboratory’s Guide
         should be modified to meet NDIS requirements.

     •   The Laboratory’s most recent internal and external reviews and
         Laboratory policies and procedures related to sample security
         sample processing, and sample retention found the Laboratory to
         be in compliance with the QAS.

     •   The Laboratory’s 100 forensic DNA profiles that we reviewed were
         complete and accurate. Ninety-eight profiles were allowable for
         inclusion in NDIS. One profile was taken from a cigarette butt but
         the origin of the cigarette could not be determined as being part of
         the crime scene. The case file for another profile did not include a
         known sample from the victim for comparison. The Laboratory
         removed both of these profiles from NDIS before our field work
         began.




                                    - ii -
      We made a recommendation to address the Laboratory’s compliance
with standards governing CODIS activities, which are discussed in detail in
the Findings and Recommendation section of the report. Our audit
objectives, scope, and methodology are detailed in Appendix I of the report
and the audit criteria are detailed in Appendix II.

      We discussed the results of our audit with Laboratory officials and
have included their comments in the report as applicable.




                                    - iii -
                                TABLE OF CONTENTS

INTRODUCTION ................................................................................ 1
   Background ..................................................................................... 1
   OIG Audit Objectives ........................................................................ 1
   Legal Foundation for CODIS ............................................................... 1
   CODIS Structure .............................................................................. 3
   Laboratory Information ..................................................................... 6

FINDINGS AND RECOMMENDATION.................................................. 7
   I. Complinace with NDIS Participation Requirements ............................ 7
   II. Compliance with Quality Assurance Standards .............................. 10
   III. Suitability of Forensic DNA Profiles in CODIS Databases................ 13

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ................ 15

APPENDIX II: AUDIT CRITERIA ...................................................... 18
   NDIS Participation Requirements ...................................................... 18
   Quality Assurance Standards ........................................................... 18
   Office of the Inspector General Standards ......................................... 20

APPENDIX III: TEXAS DEPARTMENT OF PUBLIC SAFETY
MCALLEN CRIMINAL LABORATORY RESPONSE ............................... 22

APPENDIX IV: FEDERAL BUREAU OF INVESTIGATION
RESPONSE ...................................................................................... 23

APPENDIX V: ACTIONS NECESSARY TO CLOSE THE REPORT ........... 24
                                 INTRODUCTION


      The Department of Justice, Office of the Inspector General (OIG),
Audit Division, has completed an audit of compliance with standards
governing Combined DNA Index System (CODIS) activities at the Texas
Department of Public Safety McAllen Criminal Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the United
States using forensic science and computer technology. The CODIS program
allows these laboratories to compare and match DNA profiles electronically,
thereby assisting law enforcement in solving crimes and identifying missing
                         1
or unidentified persons. The FBI’s CODIS Unit manages CODIS and is
responsible for its use in fostering the exchange and comparison of forensic
DNA evidence.

OIG Audit Objectives

      Our audit generally covered the period from April 2009 through
March 2011. The objectives of our audit were to determine if: (1) the Texas
Department of Public Safety McAllen Criminal Laboratory was in compliance
with the National DNA Index System (NDIS) participation requirements;
(2) the Laboratory was in compliance with the Quality Assurance Standards
(QAS) issued by the FBI; and (3) the Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS. Appendix I contains a detailed description of our audit objectives,
scope, and methodology; and Appendix II contains the criteria used to
conduct the audit.

Legal Foundation for CODIS

      The FBI’s CODIS program began as a pilot project in 1990. The DNA
Identification Act of 1994 (Act) authorized the FBI to establish a national
index of DNA profiles for law enforcement purposes. The Act, along with



       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
subsequent amendments, has been codified in a federal statute (Statute)
providing the legal authority to establish and maintain NDIS. 2

Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice agency –
or the U.S. Department of Defense – in accordance with QAS issued by the
FBI. The DNA information in the index is authorized to be disclosed only:
(1) to criminal justice agencies for law enforcement identification purposes;
(2) in judicial proceedings, if otherwise admissible pursuant to applicable
statutes or rules; (3) for criminal defense purposes, to a defendant who shall
have access to samples and analyses performed in connection with the case
in which the defendant is charged; or (4) if personally identifiable
information (PII) is removed for a population statistics database, for
identification research and protocol development purposes, or for quality
control purposes.




      2
          42 U.S.C.A. § 14132 (2006).



                                        2
CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS, managed by the FBI as the nation’s DNA database
containing DNA profiles uploaded by participating states; (2) the State DNA
Index System (SDIS) which serves as a state’s DNA database containing
DNA profiles from local laboratories within the state and state offenders; and
(3) the Local DNA Index System (LDIS), used by local laboratories. DNA
profiles originate at the local level and then flow upward to the state and, if
allowable, national level. For example, the local laboratory in the Palm
Beach County, Florida, Sheriff’s Office sends its profiles to the state
laboratory in Tallahassee, which then uploads the profiles to NDIS. Each
state participating in CODIS has one designated SDIS laboratory. The SDIS
laboratory maintains its own database and is responsible for overseeing
NDIS issues for all CODIS-participating laboratories within the state. The
graphic below illustrates how the system hierarchy works.

                 Example of System Hierarchy within CODIS


                                              NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office




                                                  3
National DNA Index System

       NDIS, the highest level in the CODIS hierarchy, enables laboratories
participating in the CODIS program to electronically compare DNA profiles on
a national level. NDIS does not contain names or other PII about the
profiles. Therefore, matches are resolved through a system of laboratory-
to-laboratory contacts. NDIS contains the following eight searchable
indices:

      •   Convicted Offender Index contains profiles generated from persons
          convicted of qualifying offenses. 3

      •   Arrestee Index is comprised of profiles developed from persons who
          have been arrested, indicted, or charged in an information with a
          crime.

      •   Legal Index consists of profiles that are produced from DNA
          samples collected from persons under other applicable legal
          authorities. 4

      •   Detainee Index contains profiles from non-U.S. persons detained
          under the authority of the U.S. and required by law to provide a
          DNA sample for analysis and entry into NDIS.

      •   Forensic Index profiles originate from, and are associated with,
          evidence found at crime scenes.

      •   Missing Person Index contains known DNA profiles of missing
          persons and deduced missing persons.

      •   Unidentified Human (Remains) Index holds profiles from
          unidentified living individuals and the remains of unidentified
          deceased individuals. 5




      3
        The phrase “qualifying offenses” refers to local, state, or federal crimes that
 require a person to provide a DNA sample in accordance with applicable laws.
      4
        An example of a Legal Index profile is one from a person found not guilty by
 reason of insanity who is required by the relevant state law to provide a DNA sample.
      5
         An example of an Unidentified Human (Remains) Index profile from a living person
 is a profile from a child or other individual, who cannot or refuses to identify themselves.



                                             4
      •   Relatives of Missing Person Index is comprised of DNA profiles
          generated from the biological relatives of individuals reported
          missing.

      Given these multiple databases, the main functions of CODIS are to:
(1) generate investigative leads that may help in solving crimes, and
(2) identify missing and unidentified persons.

       The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

       In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. For
instance, those persons may be identified through matches between the
profiles in the Missing Person Index and the Unidentified Human (Remains)
Index. In addition, the profiles within the Missing Person and Unidentified
Human (Remains) Indices may be vetted against the Forensic, Convicted
Offender, Arrestee, Detainee, and Legal Indices to provide investigators with
leads in solving missing and unidentified person cases.

State and Local DNA Index Systems

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a



                                       5
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

       CODIS becomes more useful as the quantity of DNA profiles in the
system increases because the potential for additional leads rises. However,
the utility of CODIS relies upon the completeness, accuracy, and quantity of
profiles that laboratories upload to the system. Incomplete CODIS profiles
are those for which the required number of core loci were not tested or do
not contain all of the DNA information that resulted from a DNA analysis and
may not be searched at NDIS. 6 The probability of a false match among DNA
profiles is reduced as the completeness of a profile increases. Inaccurate
profiles, which contain incorrect DNA information or an incorrect specimen
number, may generate false positive leads, false negative comparisons, or
lead to the misidentification of a sample. Further, laws and regulations
exclude certain types of profiles from being uploaded to CODIS to prevent
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

       The Laboratory is a Local DNA Index System (LDIS) Laboratory in the
state of Texas and services at least 30 agencies in 8 counties including
sheriff’s offices and local police departments. These 8 counties include a
population of approximately 2 million people. The Laboratory began using
DNA in the processing of criminal case evidence in 1997 and began using
CODIS in 2002. The Laboratory analyzes only forensic DNA samples and
does not outsource the analysis of forensic profiles. The Laboratory is
accredited by the American Society of Crime Laboratory Directors/Laboratory
Accreditation Board and was first accredited in February 1997. The
Laboratory’s next accreditation renewal is due in December 2012.




6
    A “locus” is a specific location on a chromosome. The plural form of locus is loci.


                                                6
                FINDINGS AND RECOMMENDATION

      I. COMPLIANCE WITH NDIS PARTICIPATION REQUIREMENTS

      The Laboratory complied with the NDIS participation
      requirements we reviewed with the exception of the Laboratory’s
      Operations Guide stating personnel records are to be retained for
      5 years instead of the NDIS requirement of 10 years.

      The NDIS participation requirements, which consist of the MOU and
the NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
MOU describes the CODIS-related responsibilities of both the Laboratory and
the FBI. The NDIS Procedure Manual is comprised of the NDIS operational
procedures and provides detailed instructions for laboratories to follow when
performing certain procedures pertinent to NDIS. The NDIS participation
requirements we reviewed are listed in Appendix II of this report.

Results of the OIG Audit

      We found that the Laboratory complied with the NDIS participation
requirements we reviewed with two exceptions. Specifically, we found that
the Laboratory’s Operations Guide only requires personnel records be
retained for 5 years, whereas the NDIS operational procedures require that
these records be retained for 10 years. In addition, NDIS matches are to be
confirmed or refuted within 30 business days and because the Laboratory
did not request one confirmation until 28 days after identification, the
confirmation was not completed in a timely manner. The results of our audit
are described in more detail below.

Maintenance of Personnel Files

      NDIS requires that participating Laboratories maintain personnel files
for CODIS users, including proficiency testing, training, and other reports for
10 years. According to Laboratory officials, personnel records, including
statements of qualifications, transcripts, continuing education certificates,
results of proficiency testing, and results of court monitoring of the technical
personnel are maintained indefinitely. This exceeds the NDIS requirements.
However, the Laboratory’s Operations Guide requires personnel records be
retained for only 5 years. We recommend that the Laboratory amend the
Guide to state that personnel records will be retained for at least 10 years to
show compliance with FBI requirements.




                                       7
NDIS Matches

       NDIS procedures require a match confirmation process when matches
are identified in the CODIS system. We judgmentally selected a sample of
six NDIS matches and found the Laboratory to be timely in match
confirmations and the notification of investigators of forensic matches.
However, the Laboratory was not timely in initiating the match confirmation
process for one NDIS match we reviewed. NDIS procedures require
laboratories to make their best efforts to disposition matches within
30 business days. For match number DC0000165838 the match was
identified on November 23, 2009, but was not confirmed until February 2,
2010, thereby making it 18 days past the 30 business day requirement. The
Laboratory did not request confirmation of this match until 28 days after
identification because Laboratory personnel waited to receive information
from the investigator. Laboratory officials told us they no longer wait more
than 2 weeks before proceeding ahead with the confirmation request.
Because this appears to have been an isolated case of untimely match
disposition, we make no recommendation for this issue.

       We found that the Laboratory complied with the other NDIS
participation requirements we reviewed, as described below.

  •   NDIS requires that CODIS be physically and electronically safeguarded
      from unauthorized use and only accessible to limited approved
      personnel. The Laboratory’s CODIS workstation is in secured
      Laboratory space and its use is limited to CODIS users. All users have
      their own CODIS user password, and the computer screen locks after
      10 minutes of inactivity. The CODIS Administrator makes two backups
      weekly and stores one in a locked drawer in the Laboratory and the
      other in a locked container in the building housing the firearms section
      located across the parking lot from the Laboratory.

  •   NDIS operational procedures require that CODIS users be aware of the
      NDIS procedures, know where to find them, and have access to them.
      We confirmed with two of the Laboratory’s CODIS users that they were
      aware of the procedures. We verified that Laboratory staff knew
      where to find and access the procedures in the Laboratory by having
      them show us where to find them.

  •   CODIS users are required to annually complete DNA Records
      Acceptance training. We verified with the FBI that all current CODIS
      users had completed the web-based training.

  •   The FBI requires that the Laboratory submit fingerprint cards,
      background information, CODIS user information, and other


                                      8
      appropriate documentation regarding CODIS users. We verified that
      the Laboratory submitted all required information for each CODIS user
      to the FBI.

  •   The NDIS operational procedures titled Review of External Audits
      requires that external quality assurance review reports be forwarded
      to the NDIS Custodian within 30 days of the Laboratory’s receipt of the
      report. We reviewed the submission of the most recent external
      review and found that the report was submitted to the NDIS Custodian
      in a timely manner.

Conclusion

       For the areas we tested, we determined that the Laboratory was in
compliance with NDIS participation requirements with the exception of the
number of years specified in its Operations Guide for the maintenance of
personnel files. We did not identify any deficiencies in safeguarding CODIS,
annual training forms, personnel records, annual training, and external
reviews. We make a recommendation concerning our review of NDIS
participation requirements specific to the Laboratory’s Operations Guide and
the retention of personnel records.

Recommendation

We recommend that the FBI:

  1. Ensure that the Laboratory amends it Operations Guide to state that
     personnel records will be retained for a minimum of 10 years.




                                     9
       II. COMPLIANCE WITH QUALITY ASSURANCE STANDARDS

       We reviewed the Laboratory’s compliance with the FBI’s quality
       assurance standards (QAS) by examining the most recent
       internal and external reviews, and the Laboratory’s policies and
       procedures for sample processing, sample security, and sample
       retention. 7 We did not identify any instances of non-compliance
       with these standards.

       During our audit, we considered the Forensic Quality Assurance
                                      8
Standards (QAS) issued by the FBI. These standards describe the quality
assurance requirements that the Laboratory must follow to ensure the
quality and integrity of the data it produces. We also assessed the two most
recent QAS reviews that the laboratory underwent. The QAS we reviewed
are listed in Appendix II.

Results of the OIG Audit

       We found that the Laboratory complied with the Forensic QAS tested.
Specifically, we found the Laboratory is reviewed annually, has sufficient
building and evidence security, and has appropriate quality assurance
policies. These results are described in more detail below.

   •   The QAS requires laboratories to undergo an annual review, including
       an external review every 2 years. We determined that the Laboratory
       complied with this requirement by undergoing an annual review and by
       alternating between an internal and an external review each year.

   •   We obtained the most recent internal and external reviews for the
       Laboratory. We determined that for both reviews, the FBI audit
       document was used, all instances of noncompliance were reported, all
       reviewers had completed the FBI’s reviewer training course, and
       adequate corrective actions for review findings were developed by the


       7
          The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.
       8
         Forensic Quality Assurance Standards refer to the Quality Assurance Standards for
Forensic DNA Testing Laboratories, effective July 1, 2009.



                                             10
    Laboratory. Although the review reports contained findings, there
    were no repeat deficiencies.

•   In order to rely on the external review report, external reviewers must
    confirm they were independent at the time of the review. We
    requested and received completed reviewer independence statements
    from the reviewers participating in the external review.

•   We verified that the entrances to the building that house the
    Laboratory are properly secured and controlled with key coded doors,
    security cameras, motion detectors, a security communications center,
    and a receptionist for the public entrance to prevent access by
    unauthorized personnel. The Laboratory itself is also secured by key
    coded doors and visitors are escorted at all times. Overall security at
    the Laboratory appears to be in compliance with the QAS requirements
    that we tested.

•   The integrity of physical evidence is maintained by the Laboratory in
    accordance with the QAS standards that we tested. Specifically, the
    Evidence Technician uses an information management system to track
    evidence. Each item of evidence is given a unique case number
    consisting of the Laboratory’s state issued code, a sequential number,
    and a description of the specimen. Through observation, we
    determined that evidence is properly stored from the point of receipt
    through processing. To ensure the accuracy of data loaded into the
    database, the Laboratory technically reviews all case files and
    completes a checklist for each sample prior to uploading it to CODIS.

•   The QAS requires laboratories to perform evidence examination, DNA
    extraction, and PCR setup at separate times or in separate places. For
    known and unknown samples, the Laboratory performs the
    examination, extraction, PCR setup, and amplification in separate
    rooms and times within the Laboratory.

•   The Laboratory properly stores forensic samples in secure areas and
    retains the samples indefinitely. Specific to forensic samples, prior to
    processing an analyst takes cuttings. These cuttings are kept
    indefinitely and the original evidence is returned to the submitting
    agency.




                                    11
Conclusion

      Based on our review of internal and external reviews as well as
Laboratory and sample security, our audit did not reveal any deficiencies in
the Laboratory’s compliance with the FBI’s QAS. We make no
recommendations concerning our review of Quality Assurance Standards.




                                     12
      III. SUITABILITY OF FORENSIC DNA PROFILES IN CODIS
           DATABASES

      We reviewed 100 DNA profiles in the Laboratory’s forensic CODIS
      database and determined that all were complete and accurate. We
      found that 98 profiles were allowable for inclusion in NDIS. The
      Laboratory had already removed the remaining two profiles from NDIS
      before our audit began.

       We reviewed a sample of the Laboratory’s Forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS. 9 To test the completeness and accuracy of each profile,
we established standards that require a profile include all the loci for which
the analyst obtained results, and that the values at each locus match those
identified during analysis. 10 Our standards are described in more detail in
Appendix II of this report.

       The FBI’s NDIS operational procedures establish the DNA data
acceptance standards by which laboratories must abide. The FBI also
developed a flowchart as guidance for the laboratories for determining what
is allowable in the forensic index at NDIS. Laboratories are prohibited from
uploading forensic profiles to NDIS that clearly match the DNA profile of the
victim or another known person that is not a suspect. A profile at NDIS that
matches a suspect may be allowable if the contributor is unknown at the
time of collection, however, NDIS guidelines prohibit profiles that match a
suspect if that profile could reasonably have been expected to be on an item
at the crime scene or part of the crime scene independent of the crime. For
instance, a profile from an item seized from the suspect’s person, such as a
shirt, or that was in the possession of the suspect when collected is
generally not a forensic unknown and would not be allowable for upload to
NDIS. The NDIS procedures we reviewed are listed in Appendix II of this
report.

Results of the OIG Audit

      We selected a sample of 100 profiles out of the 1,503 forensic profiles
the Laboratory had uploaded to NDIS as of March 4, 2011. Of the 100

      9
         When a laboratory’s universe of DNA profiles in NDIS exceeds 1,500, our sample is
taken from SDIS rather than directly from NDIS. See Appendix I for further description of
the sample selection.
      10
           A “locus” is a specific location on a chromosome. The plural form of locus is loci.




                                              13
forensic profiles sampled, we found 2 that were unallowable for inclusion in
NDIS. The remaining profiles sampled were complete, accurate, and
allowable for inclusion in NDIS. The specific exceptions are explained in
more detail below.

OIG Sample Number CA-97

      The profile was from a cigarette butt found at a homicide scene. The
cigarette was outside in the apartment complex where the body was found
but there was nothing else definitively linking it to the homicide or the
victim. Prior to our audit the Laboratory deleted this profile because the
results of the DNA analysis eliminated the suspect.

OIG Sample Number CA-99

      This profile was also from a homicide scene. The body was
decomposed, and even though bone, tissue, and hair samples were taken for
known profiles, the samples were not adequate enough to obtain reliable
results. Law enforcement officials were notified that the samples were
inadequate; however, they never provided the Laboratory with another
sample. Laboratory officials had also deleted this profile prior to our audit
because it could not be determined if the profile was from the victim or the
perpetrator.

Conclusion

     After reviewing the case files for each of the 100 profiles in our
sample, we found all sampled profiles to be complete and accurate. We
found 98 profiles were allowable for inclusion in NDIS and 2 profiles that the
Laboratory deemed unallowable and deleted prior to our audit. We make no
recommendations concerning our review of Forensic DNA profiles.




                                     14
                                                                         APPENDIX I

             OBJECTIVES, SCOPE, AND METHODOLOGY


      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit generally covered the period from April 2009 through
March 2011. The objectives of the audit were to determine if the:
(1) Laboratory was in compliance with the NDIS participation requirements;
(2) Laboratory was in compliance with the Quality Assurance Standards
(QAS) issued by the FBI; and (3) Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS. To accomplish the objectives of the audit, we:

   •   Examined internal and external Laboratory QAS review reports and
       supporting documentation for corrective action taken, if any, to
       determine whether: (a) the Laboratory complied with the QAS,
       (b) repeat findings were identified, and (c) recommendations were
       adequately resolved.11

       In accordance with the QAS, the internal and external laboratory review
       procedures are to address, at a minimum, a laboratory’s quality
       assurance program, organization and management, personnel
       qualifications, facilities, evidence control, validation of methods and
       procedures, analytical procedures, calibration and maintenance of
       instruments and equipment, proficiency testing of analysts, corrective
       action for discrepancies and errors, review of case files, reports, safety,
       and previous audits. The QAS require that internal and external reviews
       be performed by personnel who have successfully completed the FBI’s
       training course for conducting such reviews.
       11
           The QAS require that laboratories undergo annual audits, which every other year,
must be performed by an external agency that performs DNA identification analysis and is
independent of the laboratory being reviewed. The QAS does not require these audits to be
performed in accordance with the Government Auditing Standards (GAS) and they are not
performed by the Department of Justice Office of the Inspector General. Therefore, we
refer to the QAS audits as either internal or external laboratory reviews, as applicable, to
avoid confusion with our audits that are conducted in accordance with GAS.



                                            15
       As permitted by GAS 7.42 (2007 revision), we generally relied on the
       results of the Laboratory’s external laboratory review to determine if
       the Laboratory complied with the QAS. 12 In order to rely on the work
       of non-auditors, GAS requires that we perform procedures to obtain
       sufficient evidence that the work can be relied upon. Therefore, we:
       (1) obtained evidence concerning the qualifications and independence
       of the individuals who conducted the review and (2) determined that
       the scope, quality, and timing of the audit work performed was
       adequate for reliance in the context of the current audit objectives by
       reviewing the evaluation procedure guide and resultant findings to
       understand the methods and significant assumptions used by the
       individuals conducting the reviews. Based on this work, we
       determined that we could rely on the results of the Laboratory’s
       external laboratory review.

   •   Interviewed Laboratory officials to identify management controls,
       Laboratory operational policies and procedures, Laboratory certifications
       or accreditations, and analytical information related to DNA profiles.

   •   Toured the Laboratory to observe facility security measures as well as
       the procedures and controls related to the receipt, processing,
       analyzing, and storage of forensic evidence DNA samples.

   •   Reviewed the Laboratory’s written policies and procedures related to
       conducting internal reviews, resolving review findings, expunging DNA
       profiles from NDIS, and resolving matches among DNA profiles in NDIS.

   •   Reviewed supporting documentation for 6 of 62 NDIS matches to
       determine whether they were resolved in a timely manner. The
       Laboratory provided the universe of 62 NDIS matches as of March 10,
       2011. The sample was judgmentally selected to include both case-to-
       case and case-to-offender matches. This non-statistical sample does
       not allow projection of the test results to all matches.

   •   Reviewed the case files for selected forensic DNA profiles to determine if
       the profiles were developed in accordance with the Forensic QAS and
       were complete, accurate, and allowable for inclusion in NDIS.


       12
           We also considered the results of the Laboratory’s internal laboratory review, but
could not rely on it because it was not performed by personnel independent of the
Laboratory. Further, as noted in Appendix II, we performed audit testing to verify
Laboratory compliance with specific Quality Assurance Standards that have a substantial
effect on the integrity of the DNA profiles uploaded to NDIS.



                                             16
      Working in conjunction with the contractor used by the FBI to maintain
      NDIS and the CODIS software, we obtained an electronic file identifying
      the 1,503 (STR) forensic profiles the Laboratory had uploaded to NDIS
      as of March 4, 2011. We limited our review to a sample of 100 profiles.
      This sample size was determined judgmentally because preliminary
      audit work determined that risk was not unacceptably high.

  •   Using the judgmentally-determined sample size, we randomly selected a
      representative sample of labels associated with specific profiles in our
      universe to reduce the effect of any patterns in the list of profiles
      provided to us. However, since the sample size was judgmentally
      determined, the results obtained from testing this limited sample of
      profiles may not be projected to the universe of profiles from which the
      sample was selected.

      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.




                                     17
                                                                     APPENDIX II

                               AUDIT CRITERIA

      In conducting our audit, we considered the NDIS participation
requirements and the Quality Assurance Standards (QAS). However, we did
not test for compliance with elements that were not applicable to the
Laboratory. In addition, we established standards to test the completeness
and accuracy of DNA profiles as well as the timely notification of DNA profile
matches to law enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational procedures,
establish the responsibilities and obligations of laboratories that participate
in NDIS. The MOU requires that NDIS participants comply with federal
legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS requirements

   •    DNA Data Acceptance Standards
   •    DNA Data Accepted at NDIS
   •    Quality Assurance Standards (QAS) Reviews
   •    Confirm an Interstate Candidate Match
   •    General Responsibilities
   •    Initiate and Maintain a Laboratory’s Participation in NDIS
   •    Security Requirements
   •    CODIS Users
   •    CODIS Administrator Responsibilities
   •    Access to, and Disclosure of, DNA Records and Samples
   •    Upload of DNA Records
   •    The FBI Flowchart: A Guide to Determining What is Allowable in the
        Forensic Index at NDIS. 13


Quality Assurance Standards

      The FBI issued two sets of Quality Assurance Standards (QAS): QAS
for Forensic DNA Testing Laboratories, effective July 1, 2009 (Forensic QAS);

       13
         The FBI Flowchart is guidance issued to NDIS-participating laboratories separate
 from the MOU and NDIS operational procedures. The flowchart is contained in the 2010
 CODIS Administrator’s Handbook and has been provided to laboratories in forums such as
 CODIS conferences.


                                          18
and QAS for DNA Databasing Laboratories, effective July 1, 2009 (Offender
QAS). The Forensic QAS and the Offender QAS describe the quality
assurance requirements that the Laboratory should follow to ensure the
quality and integrity of the data it produces.

       For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

   •   Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
       have a facility that is designed to ensure the integrity of the analyses
       and the evidence.

   •   Evidence Control (Forensic QAS 7.1): The laboratory shall have and
       follow a documented evidence control system to ensure the integrity of
       physical evidence. Where possible, the laboratory shall retain or return
       a portion of the evidence sample or extract.

   •   Sample Control (Offender QAS 7.1): The laboratory shall have and
       follow a documented sample inventory control system to ensure the
       integrity of database and known samples.

   •   Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
       laboratory shall monitor the analytical procedures using [appropriate]
       controls and standards.

   •   Review (Forensic QAS 12.1): The laboratory shall conduct
       administrative and technical reviews of all case files and reports to
       ensure conclusions and supporting data are reasonable and within the
       constraints of scientific knowledge.

       (Offender QAS Standard 12.1): The laboratory shall have and follow
       written procedures for reviewing DNA records and DNA database
       information, including the resolution of database matches.

   •   [Reviews] (Forensic QAS and Offender QAS 15.1 and 15.2): The
       laboratory shall be audited annually in accordance with [the QAS]. The
       annual audits shall occur every calendar year and shall be at least 6
       months and no more than 18 months apart.
       At least once every 2 years, an external audit shall be conducted by an
       audit team comprised of qualified auditors from a second agency(ies)


                                       19
      and having at least one team member who is or has been previously
      qualified in the laboratory’s current DNA technologies and platform.

  •   Outsourcing (Forensic QAS and Offender QAS Standard 17.1): A vendor
      laboratory performing forensic and database DNA analysis shall comply
      with these Standards and the accreditation requirements of federal law.

      Forensic QAS 17.4: An NDIS participating laboratory shall have and
      follow a procedure to verify the integrity of the DNA data received
      through the performance of the technical review of DNA data from a
      vendor laboratory.

      Offender QAS Standard 17.4: An NDIS participating laboratory shall
      have, follow and document appropriate quality assurance procedures to
      verify the integrity of the data received from the vendor laboratory
      including, but not limited to, the following: Random reanalysis of
      database, known or casework reference samples; Inclusion of QC
      samples; Performance of an on-site visit by an NDIS participating
      laboratory or multi-laboratory system outsourcing DNA sample(s) to a
      vendor laboratory or accepting ownership of DNA data from a vendor
      laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

  •   Completeness of DNA Profiles: A profile must include each value
      returned at each locus for which the analyst obtained results. Our
      rationale for this standard is that the probability of a false match
      among DNA profiles is reduced as the number of loci included in a
      profile increases. A false match would require the unnecessary use of
      laboratory resources to refute the match.


  •   Accuracy of DNA Profiles: The values at each locus of a profile must
      match those identified during analysis. Our rationale for this standard
      is that inaccurate profiles may: (1) preclude DNA profiles from being
      matched and, therefore, the potential to link convicted offenders to a
      crime or to link previously unrelated crimes to each other may be lost;
      or (2) result in a false match that would require the unnecessary use
      of laboratory resources to refute the match.




                                     20
•   Timely Notification of Law Enforcement When DNA Profile Matches
    Occur in NDIS: Laboratories should notify law enforcement personnel
    of NDIS matches within 2 weeks of the match confirmation date,
    unless there are extenuating circumstances. Our rationale for this
    standard is that untimely notification of law enforcement personnel
    may result in the suspected perpetrator committing additional, and
    possibly more egregious, crimes if the individual is not deceased or
    already incarcerated for the commission of other crimes.




                                  21
                                                                             APPENDIX III



                        TEXAS DEPARTMENT OF PUBLIC SAFETY
       · ""
   ~
                                        Regional Crime Laboratory
                                  P.O. Box 819, McAllen , Texas 18505·0819
                                                                                      00 _ _
    ~ ---                            956·984-5600 FAX: 956-984-5713
S~C.MCCAAW
                                                                               ,",Lo\N 6. POLUNSKY, CH,t.JR
  DlR~CTOR
                                                                                      ADABRO'NN
\.AIAAR BECKWORTH                                                                     JOliN STEE N
  CH~R\'l Moo,BRICE
                                                                                  CARIN rJARCY 8ARTH
DEPUTY   D I REC TO ~
                                                                                   A, CYNTHIA lEO N



                                         June 16, 2011


      David M. Sheeren, Regional Audit Manager
      U.S. Department of Justice
      Office of the Inspector General
      Denver Regional Audit Office
      1120 Lincoln Street, Suite 1500
      Denver, CO 80203

      Dear Mr. Sheeren:

      It was brought to our attention in the draft audit report we received June 1,2011,
      that our Laboratory's Operations Guide requires personnel records be retained for
      5 years while NDIS requires these records be maintained for 10 years. Currently,
      we are working with the CO DIS unit to establish a mutually acceptable plan for
      retention of these records. Until the state laws or CODIS policies pertaining to
      this situation are changed, we will be implementing a local deviation to existing
      policy requiring our personnel records be retained for a minimum of 10 years.

      Additionally, under the Laboratory Information section on page 6 of the draft audit
      report, the population for the 8 counties serviced by our section is stated as
      "approximately 4 million people. " We believe the population is closer to
      approximately 2 million people.


      Sincerely,



      Caitlin E. Schiller
      Local CODIS Administrator- DNA. McAllen




               archan
       Re ional Labora     0   Mana er McAllen




                                        COURTESY . SERVICE· PROTECTION




                                                    22

                                                                                        APPENDIX IV





                                                      U.S. Dcplrtmcnt or Justlcc


                                                      Fcderal Burcau of Investigation


                                                      Wasltinaton. D. C. 20~3!..ooo!

                                                      IWle 22, 2011


David M. Sheeren
Regional Audit Manager
Denver RegionaJ Audit Office
Office of the Inspector General
21120 Lincoln Street, Suite 1500
Denver, CO 80203

Dear Mr. Sheeren:

                Your memorandum to Director Mueller forwarding the draft audit report for the
Texas Department of Public Safety, RcgionaJ Crime Laboratory, McAllen, (Laboratory), has
been referred to me for response.

              Your draft audit report contained one recommendation relating to the Laboratory's.
compliance with the FBI's Memorandum of Understanding and Qualily Assurance Standards for
DNA Testing Laboratories. The COOlS Unit has reviewed your draft audit report and offers the
follOwing comment.

               With respect to Recommendation one relating to the Laboratory's retention of
personnel records, the CODIS Unit is in contact with the Laboratory as we endeavor to find a
mutually acceptable corrective action plan.

                Thank you for sharing the draft audit report with us. If you have any questions,
please feel free to contact lermifer Luttman, Chief of the CODIS Unit, at (703) 632-8315.

                                                     Sincerely,



                                                     ~~~~
                                                     Section Chief
                                                     Biometrics Ana1ysis Section
                                                     FBI Laboratory




                                                   23

                                                       APPENDIX V

OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,
       ANALYSIS AND SUMMARY OF ACTIONS
           NECESSARY TO CLOSE REPORT

1. Resolved. We recommended that the FBI require the Laboratory to
   amend its Operations Guide to state that personnel records will be
   retained for a minimum of 10 years. This recommendation can be
   closed when we receive documentation that reflects this change.




                                 24
